                             Limited Official Use




             The Area Distribution Centers’ Competitive
              Sourcing Submission Was Reasonable;
            However, Improvements Could Be Made to the
               Overall Competitive Sourcing Process

                                March 2004

                    Reference Number: 2004-10-082




     The Treasury Inspector General for Tax Administration (TIGTA) has
   designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
    “Limited Official Use Information and Other Legends.” Because this
   document has been designated LOU, it may only be made available to
 those officials that have a need to know the information contained within
 this report in the performance of their official duties. This report must be
  safeguarded and protected from unauthorized disclosure; therefore, all
  requests for disclosure of this report must be referred to the Disclosure
             Section within the TIGTA’s Office of Chief Counsel.




                             Limited Official Use
                                  Limited Official Use
  The Area Distribution Centers’ Competitive Sourcing Submission Was Reasonable;
 However, Improvements Could Be Made to the Overall Competitive Sourcing Process

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Thomas M. Dori, Senior Auditor
S. Kent Johnson, Senior Auditor




                                                                                      Page 2
                                    Limited Official Use
